NOTE: Portions of this Management Letter that assess potential vulnerabilities in
NARA’s holdings security have been redacted due to their sensitivity.




                                    National Archives and Records
                                                   Administration
                                                                       8601 Adelphi Road
                                                      College Park, Maryland 20740-6001

Date       : October 21, 2005
Reply to
Attn of    : Inspector General

Subject    : Management Letter 06-03: Security Over Holdings in Stack Areas

To         : Archivist

The purpose of this Management Letter is to formally advise you as to the status of
security over NARA holdings specific to, but not limited to Archives I. As you are
aware, holdings security has been defined as a material weakness under the reporting
provisions of the Federal Manager’s Financial Integrity Act (FMFIA) since 2002.
Likewise, the Office of Inspector General (OIG) has consistently cited holdings security
as one of this agency’s Top Ten Management Challenges in our semiannual reports to
Congress. This Management Letter has been drafted to inform you that recent events
have reiterated the need for this agency to take significant and profound measures to
address the security deficiencies specific to NARA stack areas at Archives I and II. The
general conditions defined in this management letter are pertinent to other NARA
locations as well.

In recent months this agency experienced a series of apparently willful acts resulting in
the destruction and attempted destruction of records to include permanent Bureau of
Indian Affairs (BIA) records accessioned into our holdings. The OIG was able to
identify a suspect and substantiate a case in a timely manner in this investigation.
[DELETED – 8 LINES]

Recent incidents raise a variety of troubling issues that strike at the heart of NARA’s
mission. Foremost is holding security. [DELETED – 4 LINES] Because of this
practice, similar issues as to those the investigators found at Archives I would apply to
Archives II. [DELETED – 3 LINES] While this may facilitate employee work processes,
it has adverse security related implications that must be considered.

Therefore, we suggest that:

       1. Additional security measures be developed and implemented to further restrict
          and document access to all stack areas at Archives I and II. NARA officials
      should seek and evaluate non-cost prohibitive technologies that can be
      implemented to achieve the dual goals of tightening access to stacks while
      providing a detailed trail of persons accessing these areas. If successful in
      identifying and implementing such a technology at Archives I and II,
      consideration can then be given to rolling the product out to other locations based
      upon a well defined methodology.
   2. Employees be educated in stack security measures and subsequently held
      responsible for execution of established internal control requirements. Specific
      restrictions should be defined and enforced to restrict access to stack areas to
      persons who fail to present proper card key or other identification.

We look forward to your response within 30 days as to how you plan to address these
suggestions.

-If you have any questions, please contact me on 301-837-[3000].



Paul Brachfeld
Inspector General
